Oversight Review               September 2, 2011


Report on Failure of Defense Contract Audit Agency,
   Santa Ana Branch Office to Provide Adequate
  Support in Response to a Request for Review of
              Interim Public Vouchers

             Report No. D-2011-6-010
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at www.dodig.mil/audit/reports or contact the Office of the Assistant
Inspector General for Audit Policy and Oversight at (703) 604-8760 or fax
(703) 604-8982.

Suggestions for Future Reviews
To suggest ideas for or to request future reviews, contact the Office of the Assistant
Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760), or
fax (703) 604-8982. Ideas and requests can also be mailed to:

                        Office of the Assistant Inspector General
                             for Audit Policy and Oversight
                        Department of Defense Inspector General
                          400 Army Navy Drive (Room 833)
                               Arlington, VA 22202-4704




Acronyms
CAM                           Contract Audit Manual
DCAA                          Defense Contract Audit Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
FAO                           Field Audit Office
FAR                           Federal Acquisition Regulation
MRD                           Memorandum for Regional Directors
GAO                           Government Accountability Office
IG                            Inspector General
                                 INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704



                                                                         September 2, 20 II


MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Report on Failure of Defense Contract Audit Agency, Santa Ana Branch
         Office, to Provide Adequate Support in Response to a Request for Review of
         Interim Public Vouchers (Report No. 0-2011-6-0 I 0)

We are providing this report for review and comment. During our review of a DoD
I-Iotline complaint we identified significant concerns regarding the audit support that the
Defense Contract Audit Agency (DCAA), Santa Ana Branch Otlice, failed to provide in
response to the contracting otlicer's request for a review of interim public vouchers. Our
concerns address timeliness in responding to the contracting otlicer's request, failure to
select and review interim public vouchers, and failure to issue a DCAA Form 2000 for
suspected irregular conduct or DCAA Form I to suspend costs billed by a conlractor that
is delinquent in paying for accrued costs in the ordinary course of business. On
April 14, 2011, we issued a Notice of Concern to the Director, DCAA recommending
that the agency take several actions in response to our findings . In preparing this report,
we considered management comments in response to the Notice of Concern.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. Please
reconsider your nonconcurrence with Recommendation 5. Therefore, we request that the
Director of DCAA comment again on Recommendation 5 by October 4, 20 II. As a
result of management comments, we deleted Notice of Concern Recommendation 6. We
renumbered Notice of Concern Reconunendation 7 as Recommendation 6 in this report.

If possible, please send a .pdf file containing your comments to carolyn.davis@dodig.mil.
Copies of the management comments must contain the actual signature of the authorizing
official. We are unable to accept the /Signed/ symbol in place of the actual signature.

We appreciate the courtesies extended to the staff. Please direct questions to
Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877) or carolyn.davis@dodig.mil.




                                Randolph R. Stone, SES
                                Deputy Inspector General
                                  Policy and Oversight
Report No. D-2011-6-010 (Project No. D2010-DIP0AI-0070.000) September 2, 2011


              Results in Brief: Report on Failure of
              Defense Contract Audit Agency, Santa Ana
              Branch Office, to Provide Adequate Support
              in Response to a Request for Review of
              Interim Public Vouchers

   What We Did                                           What We Recommend
   We reviewed a DOD Hotline complaint                   In April 2011, we issued a Notice of
   concerning allegations of abuse of authority          Concern to DCAA recommending several
   by the contracting office, legal office, and          corrective actions to address the reported
   program manager against the complainant.              deficiencies and improve related services.
   We did not substantiate the complainant’s             The DCAA Director should review the
   allegations and we issued a Hotline                   quality assurance procedures of the DCAA
   Completion Report. However, during the                Santa Ana Branch Office for ensuring timely
   course of our review, we identified                   responses to requests; reassess the adequacy
   significant concerns regarding audit support          of its procedures for reviewing public
   that the Defense Contract Audit Agency                vouchers; evaluate its procedures and
   (DCAA), Santa Ana Branch Office failed to             processes for submitting a DCAA Form
   provide in response to the contracting                2000 and a DCAA Form 1; and reassess the
   officer’s request for a review of interim             guidance allowing for delegations of
   public vouchers.                                      signatory authority to the GS-9 auditor level
                                                         to provisionally approve interim public
   What We Found                                         vouchers. The Santa Ana Branch Office
   We found that DCAA did not respond                    should review an appropriate minimum
   timely to the contracting officer’s request for       sample of previously approved interim
   a review of interim public vouchers. DCAA             public vouchers.
   did not review any of the first 12 interim
   public vouchers that it approved for                  Management Comments
   payment. DCAA did not submit a DCAA                   and Our Response
   Form 2000, “Suspected Irregularity Referral           The Director, DCAA concurred with 5 of
   Form,” in accordance with agency policy               the 7 recommendations in the Notice of
   even though the DCAA Santa Ana Branch                 Concern. We request that DCAA reconsider
   Office said it would do so in its September           its nonconcurrence with Recommendation 5
   2009 memorandum to the contracting                    to reassess the delegation of signature
   officer. In addition, DCAA did not submit a           authority and provide additional comments
   DCAA Form 1, “Notice of Contract Cost                 by October 4, 2011. As a result of
   Suspended and/or Disapproved” when the                management comments, we deleted Notice
   auditors found that the contractor billed             of Concern Recommendation 6. We
   accrued costs that the contractor is                  renumbered        Notice of         Concern
   delinquent in paying in the ordinary course           Recommendation 7 as Recommendation 6 .
   of business.                                          Please see the recommendations table on the
                                                         following page.

                                                     i
Report No. D-2011-6-010 (Project No. D2010-DIP0AI-0070.000)   September 2, 2011


Recommendations Table

             Management                    Recommendations      No Additional
                                          Requiring Comment   Comments Required
Director, Defense Contract Audit Agency     5                  1, 2, 3, 4, and 6




Please provide comments by October 4, 2011.




                                           ii
Table of Contents

Introduction

      Objective                                                        1
      Background                                                       1


Finding. Failure to Provide Adequate Audit Support

      Background                                                       2
      Our Review                                                       3
      Notice of Concern, Management Comments, and Our Response         6

Appendix

      A. Scope and Methodology                                         10
      B. DOD Inspector General Notice of Concern                       11
      C. Defense Contract Audit Agency Comments to Notice of Concern   15
Introduction
Objective
We conducted this review to determine whether we could substantiate the allegations
received by the DOD Hotline concerning abuse of authority by the contracting office,
legal office, and program manager against the complainant. The complainant’s
allegations were not substantiated and we issued a Hotline Completion Report. During
the course of our review, we identified significant concerns regarding audit support that
the Defense Contract Audit Agency (DCAA), Santa Ana Branch Office failed to provide
in response to the contracting officer’s request for a review of interim public vouchers.

See Appendix A for details of our scope and methodology.

Background

Defense Contract Audit Agency (DCAA)
While serving the public interest as its primary customer, DCAA performs contract audits
for the DOD and provides accounting and financial advisory services regarding contracts
and subcontracts to all DOD Components responsible for procurement and contract
administration. DCAA operates under the authority, direction, and control of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer.

In accordance with DOD Directive 5105.36, DCAA shall audit, examine, and/or review
contractors’ and subcontractors’ accounts, records, documents, and other evidence;
systems of internal control; and accounting, costing, and general business practices and
procedures in accordance with Government Auditing Standards, the Federal Acquisition
Regulation (FAR), the Defense Federal Acquisition Regulation Supplement (DFARS),
and other applicable laws and regulations. DCAA shall approve, suspend, or disapprove
costs on reimbursement vouchers received directly from contractors, under cost-type
contracts, and transmit the vouchers to the cognizant disbursing officer. Also, DCAA
shall report incidents of suspected fraud, waste, and abuse to the appropriate authorities.

In accordance with FAR 42.101, the auditor is responsible for (1) submitting information
and advice to the requesting activity, based on the auditor’s analysis of the contractor’s
financial and accounting records or other related data as to the acceptability of the
contractor’s incurred and estimated costs; (2) reviewing the financial and accounting
aspects of the contractor’s cost control systems; and (3) performing other analyses and
reviews that require access to the contractor’s financial and accounting records
supporting proposed and incurred costs.




                                             1
Finding
Failure to Provide Adequate Support in Response to a
Request for Review of Interim Public Vouchers
We found that the DCAA Santa Ana Branch Office failed to provide adequate support in
response to the contracting officer’s request for a review of the contractor’s interim
public vouchers.

Background
On June 11, 2008, the Air Force awarded a cost plus fixed fee contract to the contractor
in the amount of $637,990. On July 3, 2008, the contracting officer issued a Stop Work
Order because the Air Force believed that the contractor did not comply with certain
contract terms. While in effect, the Stop Work Order prohibited the contractor from
incurring additional costs under the contract. The contracting officer lifted the Stop
Work Order on September 29, 2008. On November 5, 2008, the contracting officer
requested the DCAA Santa Ana Branch Office to review the first 12 interim public
vouchers totaling $130,119 submitted by the contractor under the contract because the
contracting officer suspected the vouchers might include costs incurred during the Stop
Work Order. DCAA had previously approved the 12 vouchers for payment through the
Wide Area Workflow network. DCAA did not review any of the first 12 vouchers that it
approved for payment. The contracting officer directed DCAA not to approve any
further vouchers for payment pending DCAA’s review of the 12 public vouchers.

In a September 11, 2009, memorandum (ten months after the contracting officer’s audit
request), the DCAA Santa Ana Branch Office informed the contracting officer that it was
canceling the review. The DCAA memorandum stated that a review of the public
vouchers could not be performed because the contractor failed to provide financial
statements, tax returns, certain bank statements, and other requested supporting
documents. Nevertheless, the DCAA memorandum identified a significant amount of
vendor and subcontractor costs included in the vouchers that the contractor had not paid,
prompting the Santa Ana Branch Office to state that it would refer the matter to the
Defense Criminal Investigative Service. The DCAA September 11, 2009, memorandum
confirmed telephone conversations that occurred on April 30, 2009 between the auditors
and contracting officer, and a draft of the memorandum dated May 2009. The content of
the May 2009 draft memorandum is identical to the September 11, 2009 memorandum.

At the request of the contracting officer, an investigation was initiated by the Air Force
Office of Special Investigations. The investigation confirmed that the contractor used the
public voucher payments for personal purposes rather than to pay vendors and
subcontractors. As a result, the Government debarred the contractor from future contract
awards, and the Air Force is attempting to recover the voucher payments from the
contractor.




                                            2
Our Review
We interviewed the contracting officer, attorney, and investigator at Hanscom Air Force
Base. In addition, we interviewed the supervisory auditor and auditor at DCAA Santa
Ana Branch Office. We also reviewed applicable DCAA audit reports regarding the
contractor, researched applicable regulations, DCAA Contract Audit Manual (CAM), and
DCAA agency policies.

Our review found that DCAA Santa Ana Branch Office failed to:

   •   respond timely to the contracting officer’s request,
   •   select for review any interim public vouchers prior to approval for payment,
   •   issue a DCAA Form 2000 for suspected irregular conduct, and
   •   issue a DCAA Form 1 to suspend costs billed by a contractor that is delinquent in
       paying for accrued costs in the ordinary course of business.


Timely Response to Contracting Officer’s Request
We found that DCAA Santa Ana Branch Office did not respond timely to the contracting
officer’s November 5, 2008 request to review the first 12 interim public vouchers
submitted by the contractor under the contract. DCAA previously approved these public
vouchers for payment. The contracting officer submitted the request because she
suspected the interim public vouchers may include costs incurred during the Stop Work
Order. FAR 52.216-7g, Allowable Cost and Payment, states, “At any time or times
before final payment, the Contracting Officer may have the Contractor’s invoices or
vouchers and statements of cost audited.”

In her November 5, 2008 request, the contracting officer asked that all public vouchers on
the contract be held until the matter is resolved. On January 22, 2009 in an email to the
administrative contracting officer, the contracting officer wrote:

       “Please provide the status of this audit. This was supposed to be
       completed at the beginning of December. I cannot release any invoices
       until this is completed and a review is done.”

On April 30, 2009, nearly six months after receiving the request, DCAA Santa Ana
Branch Office sent an email to the contracting officer to advise her of the major areas of
concern. DCAA identified a significant amount of vendor and subcontractor costs
included in the public vouchers that the contractor had not paid. After another four
months, DCAA issued a memorandum to the contracting officer dated September 11,
2009 that canceled the review because the contractor failed to provide financial
statements, tax returns, certain bank statements, and other requested supporting
documents. The content of the memorandum is identical to a May 2009 draft.

We found that DCAA’s failure to respond timely to the contracting officer’s request for
review of public vouchers hindered the contracting officer’s efforts to make contractual


                                             3
decisions in a timely manner or to resolve the interim public vouchers that were being
held from payment.

Review of Interim Public Vouchers
We found that DCAA did not review any of the first 12 interim public vouchers that it
approved for payment. If DCAA had reviewed at least one of the interim public
vouchers, the Government could have stopped payments to the contractor sooner and
minimized losses under the contract.

In response to the April 14, 2011 Notice of Concern, the Regional Director, DCAA
Western Region stated, “The vouchers themselves, as submitted by the contractor did not
indicate any significant high risk factors. The contractor provided copies of source
documentation (e.g., timesheets, invoices, statement of services) for all billed costs
requested on vouchers submitted in Wide Area Work Flow (WAWF). In addition, prior
experience with the contractor did not indicate any systemic high risk factors that would
have led to increased voucher reviews. This was not the contractor’s first contact. The
Santa Ana Branch Office had processed vouchers on another contract, No. FA8718-06-C-
0068 through January 2007.”

We disagree with the Regional Director’s comment that prior experience with the
contractor did not indicate any systemic high risk factors that would have led to increased
voucher reviews. In accordance with agency guidance, as noted below, the contractor
was high risk and at least one of the interim vouchers should had been selected for
review.

In accordance with DFARS 242.803(b), the contract auditor is the authorized
representative of the contracting officer for receiving vouchers from contractors and
approving interim vouchers for provisional payment.

We reviewed applicable DCAA procedures and guidance for reviewing interim public
vouchers. DCAA guidance in CAM 6-1003f states, “The primary purpose of the
examination and approval of interim public vouchers is to provide reasonable assurance
that the amounts claimed are not in excess of that which is properly due the contractor in
accordance with the terms of the contract. The extent of audits of individual interim
vouchers should be based upon the contractor’s integrity, its financial condition and the
adequacy of its internal management controls and procedures.”

The contractor had one previous contract awarded on September 21, 2005. DCAA
performed one audit of the contractor’s accounting system. DCAA’s audit report dated
November 2, 2005 stated the examination did not include tests to determine whether
internal controls were in operation or operating effectively. In addition, the report stated
the contractor has one government contract valued at $763,148 but no actual sales had
been recorded as of October 28, 2005.




                                              4
The subject contract was awarded in June 2008. In accordance with agency guidance,
DCAA should have examined an interim public voucher submitted under the June 2008
contract before approving 12 public vouchers for payment for the following reasons:

   •   DCAA did not perform an audit of the accounting system since 2005.
   •   DCAA did not determine if the contractor was financially sound.
   •   DCAA did not determine if the contractor’s internal controls and procedures for
       accumulating cost and preparing public vouchers were acceptable.

Without an audit of the contractor’s accounting system since 2005, at least one interim
public voucher received by DCAA in 2008 should have been reviewed prior to approval
for payment.

Issuance of a DCAA Form 2000
DCAA did not issue a DCAA Form 2000, “Suspected Irregularity Referral Form,” even
though DCAA indicated that it would do so in its September 11, 2009 memorandum to
the contracting officer. DCAA found suspected irregularity during its review and drafted
a DCAA Form 2000 that states:
     • the contractor claimed costs on public vouchers that did not further the contracted
        research efforts,
     • the costs relate primarily to marketing,
    • a significant portion of billed costs were not actually incurred, and
    • the owner and sole employee salary was billed to the government on a full-time
        basis with no evidence he attempted to perform meaningful research efforts under
        the contract.

DCAA did not follow DCAA agency guidance by not issuing a DCAA Form 2000.
CAM 4-702.4, “Procedures for Referring Suspicions,” states, upon encountering or
receiving information which raises a reasonable suspicion of fraud, corruption, or
unlawful activity relating to a Government contract, promptly prepare a DCAA
Form 2000. Further, the guidance states that use of the DCAA Form 2000 is the
preferred method for forwarding this information because the form specifies the
information needed by investigators and provides for appropriate consideration of audit
impact.

Submission of a DCAA Form 2000 would have assisted authorities in their investigation
of the matter and facilitated the recoupment of amounts owed to the Government.

Issuance of a DCAA Form 1
DCAA did not issue a DCAA Form 1, “Notice of Contract Cost Suspended and/or
Disapproved” when the auditor found that the contractor billed accrued costs that the
contractor is delinquent in paying for in the ordinary course of business. The contractor
did not pay his subcontractors, vendors, or other invoices that were accrued and billed to
the Government on public vouchers. FAR 52.216-7, Allowable Cost and Payment, does
not allow a contractor to bill accrued costs that the contractor is delinquent in paying for
in the ordinary course of business. DFARS 242.803(b) states the auditor is the authorized


                                             5
representative for issuing DCAA Forms 1 to deduct costs where allowability is
questionable.

DCAA did not follow DCAA agency guidance. CAM 6-1003c states, “If the evaluation
of a voucher raises a question regarding the allowability of a cost under the contract
terms, the auditor, after informal discussion as appropriate, will issue a DCAA Form 1,
“Notice of Contract Costs Suspended and/or Disapproved”. The DCAA Form 1 is
submitted to the contractor, disbursing officer, and contracting officer. By failing to issue
a DCAA Form 1, DCAA did not notify the contractor of the unallowable costs or its
intent to suspend/disapprove billed costs. Timely submission of a DCAA Form 1 would
have triggered the administrative contracting officer’s involvement in the process and
facilitated the recoupment of amounts owed to the Government.


Notice of Concern, Management Comments, and Our
Response
On April 14, 2011, we issued a Notice of Concern 1 to the Director, DCAA to recommend
corrective actions to address the reported deficiencies and to improve audit services (see
Appendix B). In a June 17, 2011 response, DCAA concurred with 5 of 7
recommendations (see Appendix C). Discussed below is a summary of management
comments and our response.

Deleted and Renumbered Recommendations
As a result of management comments and additional work, we deleted Notice of Concern
Recommendation 6. We renumbered Notice of Concern Recommendation 7 as
Recommendation 6.

The Director, DCAA disagreed with Notice of Concern Recommendation 6 that DCAA
issue a report to the contracting officer to report the findings based on a review of the
first 12 public vouchers that were approved for payment. The Director stated he does not
believe issuing an audit report is possible or value added at this time as the issues are
currently under investigation and DCAA is assisting in the investigation. After further
discussion with the Contracting Officer and Attorney, Hanscom Air Force Base, we agree
with the Director’s comment and deleted Notice of Concern Recommendation 6 from this
report.




1
  A Notice of Concern is issued to alert DOD management of significant findings that require immediate
attention. By Issuing a Notice of Concern, DOD management officials can take proactive steps to mitigate
the reported issue.


                                                   6
Recommendations
We recommend that the Director, Defense Contract Audit Agency:

       1. Review the quality assurance procedures of the DCAA Santa Ana Branch
          Office for ensuring timely responses to audit requests.

Management Comments
The Director concurred. The Director states that the Santa Ana Branch Office staff
received extensive quality training over a three-day period from March 22 to 24, 2010.
The Branch Office plans to provide additional training and emphasis to its staff to comply
with Memorandum for Regional Directors (MRD) 10-PAS-024(R) “Rules of
Engagement” issued on September 9, 2010 including issuing timely acknowledgement
memos, due-date extensions, timely processes to cancel audit assignments, and timely
communication throughout the audit cycle.

Our Response
The comments are responsive and no further comments are required.

       2. Reassess the adequacy of its procedures for reviewing public vouchers.

Management Comments
The Director concurred. By June 30, 2011, the Santa Ana Branch Office will reassess its
processes and procedures for reviewing public vouchers to ensure that they are in
compliance with Agency policy, risk-based, and in consideration of the DODIG findings.
DCAA Policy and Plans Directorate is currently reviewing its public voucher review
process and working with the Defense Procurement Acquisition Policy in revising the
Wide Area Workflow to allow the DCAA public voucher review process to be more risk-
based than the current process. DCAA expects the revisions to Wide Area Workflow to
be completed by November 2011.

Our Response
The comments are responsive and no further comments are required.

       3. Review the first public voucher under a new contract when audits of the
          accounting system, related internal controls, or public vouchers on other
          contracts have not been performed.

Management Comments
The Director concurred. By November 2011, DCAA expects to issue revised policy to
require DCAA auditors to review the first voucher submitted under a new contract.

Our Response
The comments are responsive and no further comments are required.




                                            7
       4. Evaluate the effectiveness of its procedures and processes for submitting a
          DCAA Form 2000 when the auditor suspects irregular conduct and a
          DCAA Form 1 when the contractor is delinquent in paying accrued costs
          in the ordinary course of business.

Management Comments
The Director concurred. By August 31, 2011, the Santa Ana Branch Office will review
current Agency guidance with the staff. By September 2011, DCAA will perform an
assessment of current Agency policy to ensure that it appropriately addresses the
necessary actions to issue a DCAA Form 1 and/or Form 2000 when it is found that the
contractor is delinquent in paying accrued costs in the ordinary course of business.

Our Response
The comments are responsive and no further comments are required.

       5. Reassess the guidance issued in the Memorandum for Regional Directors
          (MRD) 10-PPS-017(R) dated June 1, 2010, that authorized Regions and
          Field Audit Office (FAO) managers to revise their delegations of signatory
          authority to permit delegation to GS-9 level auditors and above with the
          authority to provisionally approve interim public vouchers. We
          recommend that delegations to GS-9 level auditors and above be granted
          only for financially sound contractors where audit experience indicates
          that contractors’ internal controls and procedures for accumulating costs
          and preparing public vouchers are acceptable (low to moderate control
          risk).

Management Comments
The Director disagreed. The Director states that the current delegation of signature
authority already mandates that delegation for signing public vouchers be based on the
FAO manager’s discretion and will ensure that auditors’ delegated approval authority
possesses the necessary experience and competence to protect the Government’s interest
considering specific contractor risks.

Our Response
The Director’s comments are not responsive. We request that the Director reconsider his
position. Specifically, the Director did not comment on the recommendation that the
delegation to GS-9 level auditors and above will be limited to only financially sound
contractors where audit experience indicates that contractor’s internal controls and
procedures for accumulating costs and preparing public vouchers are acceptable. The
Director states DCAA will ensure auditor’s that are delegated approval authority possess the
necessary experience and competence to protect the Government’s interests considering
specific contractor risks. We disagree. DCAA hires auditor trainees at the GS-9 level.
Auditors at the GS-9 level do not possess the professional judgment or technical knowledge
and competence to protect the taxpayer and Government’s interests from high risk
contractors that do not have approved accounting and billing systems. Therefore, we request




                                             8
that the Director reconsider his position on the recommendation and provide comments in
response to the final report.

       6. Review an appropriate minimum sample of previously approved vouchers
          to determine the extent to which these deficiencies exist with the vouchers
          of other DOD contractors under the cognizance of the Santa Ana Branch
          Office.

Management Comments
The Director concurred. By December 31, 2011, the Santa Ana Branch Office will
perform a review of vouchers submitted by high risk nonmajor contractors to include
tests to verify that they are paying their vendors in the ordinary course of business.

Our Response
The comments are responsive and no further comments are required.




                                            9
Appendix A. Scope and Methodology
We evaluated the actions that DCAA Santa Ana Branch Office took in response to the
contracting officer’s request for review of the contractor’s interim public vouchers. The
review was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency “Quality Standards for Inspection and Evaluation.” As part of
our review, we:

           •   interviewed the contracting officer, attorney, and investigator Hanscom
               Air Force Base and obtained related documents;
           •   interviewed DCAA employees, Santa Ana Branch Office who were
               involved in reviewing the interim public vouchers and obtained related
               documents;
           •   reviewed applicable DCAA policies and procedures, such as the CAM;
               and
           •   reviewed applicable FAR and DFARS provisions.

We performed this review from February 2010 through May 2011.

Use of Computer-Processed Data
We did not rely on any computer-processed data as part of our review.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DOD IG
have issued 3 reports related to audit issues at DCAA. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DOD IG reports can be
accessed at http://www.dodig.mil/audit/reports.


GAO
Report No. GAO-09-468, “DCAA Audits: Widespread Problems with Audit Quality
Require Significant Reform,” September 23, 2009

Report No. GAO-08-857, “DCAA Audits: Allegations That Certain Audits at Three
Locations Did Not Meet Professional Standards Were Substantiated,” July 22, 2008


DOD IG
Report No. D-2009-6-009, “Defense Contract Audit Agency Audit Work Deficiencies
and Abusive Work Environment Identified by the Government Accountability Office,”
August 31, 2009




                                            10
Appendix B. DOD Inspector General Notice
of Concern




                   11
12
13
14
Appendix C. Defense Contract Audit
Agency Response to Notice of Concern




                   15
16
17
18
19
20
